   United States Department of Agriculture
   Office of Inspector General




Data Quality Review of American Recovery
and Reinvestment Act Jobs Reported for
USDA Programs




                                             Audit Report 50703-0002-13
                                             November 2012
                                        Data Quality Review of American Recovery and
                                      Reinvestment Act Jobs Reported for USDA Programs

                                                      Audit Report 50703-0002-13

What Were OIG’s
Objectives
OIG analyzed jobs
information reported for
USDA Recovery Act awards
and determined if the
Department and its agencies        OIG analyzed the jobs information for USDA
adequately reviewed recipient-
reported job retention and         awards reported on FederalReporting.gov to
creation figures.                  determine if OCFO and the agencies are
                                   performing an adequate review of the
What OIG Reviewed
                                   number of jobs reported.
To assess the reporting and
monitoring of jobs
information, OIG first             What OIG Found
identified 1,200 Recovery Act
jobs that were at risk for         The Office of Inspector General (OIG) identified that USDA agencies
potential duplicative reporting    were not performing adequate reviews of the job creation and
or other potential errors, and     retention figures listed on FederalReporting.gov, and determined that
then selected 99 awards for        agencies need to develop additional data checks to improve their
further review.                    reviews of jobs information reported on FederalReporting.gov. We
                                   found reporting errors related to 33 of 99 USDA Recovery Act
What OIG Recommends                awards, which account for approximately 375 of the 1,200 Recovery
                                   Act jobs reported for the awards in our sample. For instance, we
We recommend that agencies
                                   identified job numbers that were inflated because award recipients
develop data tests and
                                   reported cumulative job numbers instead of the number of jobs
guidance to improve their
                                   created or saved during the quarter being reported. In other instances,
reviews of the jobs
                                   job numbers were underreported. USDA agencies did not identify
information reported on
                                   and remedy the significant errors that award recipients made because
FederalReporting.gov. This
                                   the analytical tools the agencies were using were inadequate to verify
includes, but is not limited to,
                                   the numbers recipients reported. Rather than proactively developing
ensuring that the project
                                   additional data tests to supplement the data analysis tool that USDA’s
description fields match the
                                   Office of the Chief Financial Officer (OCFO) provided, the agencies
number of jobs reported,
                                   followed the minimum guidance issued by OCFO and the Office of
recipients with multiple
                                   Management and Budget (OMB) when reviewing the number of jobs
awards are reporting
                                   reported. The OCFO-provided data tool was intended only to be used
accurately, and recipients are
                                   as a baseline for agencies to develop specific reviews that would be
reporting only jobs created or
                                   more effective in identifying errors.
saved during the quarter being
reported.
                                   Without accurate data about the number of jobs retained or created
                                   through the use of Recovery Act funds, it is difficult to measure how
                                   effective the Department was in accomplishing a main Recovery Act
                                   objective, which was to create and retain jobs. OCFO generally
                                   agreed with our recommendation.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250



DATE:          November 30, 2012

AUDIT
NUMBER:        50703-0002-13

TO:            Jon M. Holladay
               Deputy Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathleen A. Donaldson
               Audit Liaison Officer
               Planning and Accountability Division

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Data Quality Review of American Recovery and Reinvestment Act Jobs Reported
               for USDA Programs


This report presents the results of the subject review. Your written response to the official draft
is included at the end of this report. Excerpts of your November 16, 2012, response and the
Office of Inspector General’s position are incorporated into the applicable sections of the report.
Based on your response, we have reached management decision on all of the report’s
recommendations, and no further response to us is necessary.

Please follow your internal agency procedures in forwarding final action correspondence to the
Office of the Chief Financial Officer. Also, please note that Departmental Regulation 1720-1
requires final action to be taken within 1 year of each management decision to prevent being
listed in the Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Background and Objectives ....................................................................................1
Section 1: Agency Reviews of Jobs Information on FederalReporting.gov ......3
   Finding 1: Agencies Are Not Performing Adequate Reviews of Jobs
   Information on FederalReporting.gov ...............................................................3
         Recommendation 1 ........................................................................................5
Scope and Methodology ...........................................................................................6
Abbreviations ...........................................................................................................8
Agency’s Response ...................................................................................................9
Background and Objectives

Background
When the President signed the American Recovery and Reinvestment Act of 2009 (Recovery
Act) into law on February 17, 2009, the United States Department of Agriculture (USDA) and its
component agencies received a total of $28 billion in funding in a number of program areas,
including farm loans, watershed programs, supplemental nutrition assistance, wildland fire
management, construction projects, rural housing, rural business, water and waste disposal, and
broadband.1 Among the USDA agency-administered programs that received allocations of
Recovery Act funds were programs that distribute funds to qualified recipients in the form of
contracts, loans, or grants. To ensure that funds are spent appropriately, the Recovery Act calls
for unprecedented levels of transparency and accountability, and includes requirements that
recipients of Recovery Act awards report on their use of the funds on a quarterly basis.2 As of
March 31, 2011, recipients of awards administered by USDA agencies reported approximately
4,960 awards totaling $9.29 billion that were ultimately posted to Recovery.gov, a website
created to provide information about Recovery Act funds to the general public.

Along with accountability and transparency, job creation and retention is a major objective of the
Recovery Act. Both the Office of Management and Budget (OMB) and USDA’s Office of the
Chief Financial Officer (OCFO) have emphasized the need for accurate reporting of job figures
related to the use of Recovery Act funds. Recovery.gov includes information such as award
amount, location of the work, and jobs created or retained.3 Recipients of qualifying USDA
Recovery Act awards reported that approximately 10,600 jobs had been created or retained
through the use of Recovery Act funds during the quarter ending March 31, 2011.4 Each
contract, loan, or grant that USDA awarded using Recovery Act funds can have multiple jobs
associated with it.

Recipients do not post their quarterly information directly to Recovery.gov. Instead, recipients
are required to submit timely, complete, and accurate information to a web portal called
FederalReporting.gov that Government agencies can access in order to review the information
before it is made available to the public. After a correction period, the data on
FederalReporting.gov are then released to the general public on Recovery.gov. The general
public can view many kinds of data on Recovery.gov, such as what Recovery Act funds were
being spent in their city, how many jobs were created or retained, when the work took place, and
what contractor was used.

1
  Public Law 111-5.
2
  OMB M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the American Recovery and
Reinvestment Act of 2009, Section 1512 of Public Law 111-5, February 17, 2009 and OMB M-10-14, Updated
Guidance on the American Recovery and Reinvestment Act.
3
  FederalReporting.gov is the portal for all recipients who are required to report under Section 1512 of the Recovery
Act. Recovery.gov is the website created by the Recovery Act to serve as a portal for the American public to review
and track all funds disbursed and received under the Act.
4
  Recipients only report awards on FederalReporting.gov that are currently active and meet certain criteria—such as
grants above $25,000. OMB M-10-34, Updated Guidance on the American Recovery and Reinvestment Act,
September 24, 2010.

                                                                          AUDIT REPORT 50703-0002-13               1
To help prevent inaccurate information from being posted to Recovery.gov, Federal agencies are
required to review recipient reports, identify inaccurate information, and work with recipients to
correct reporting errors. OMB requires Federal agencies to develop data quality plans that, at a
minimum, identify significant errors and omissions in the data reported on
FederalReporting.gov.5 Significant errors are defined as any errors in award number, award
amount, recipient name, and number of jobs retained or created. USDA agencies are responsible
for identifying errors in the recipient-reported data during the correction period and, if the
recipient does not correct the error, to determine why the data were not corrected, or supply a
reasonable explanation as to why the agency required no further action.

USDA’s OCFO performs continuous reviews of the recipient-reported data on
FederalReporting.gov and notifies the applicable USDA agency when significant errors are
identified. OCFO’s guidance for reviewing the recipient-reported data on FederalReporting.gov
refers the agency to the guidance in OMB M-10-08 for reviewing jobs, specifically, the number
of jobs retained or created.6 This guidance defines jobs retained or created and demonstrates
how recipients are to calculate the number of jobs retained or created to be reported on
FederalReporting.gov.7

In addition, OCFO also provided USDA agencies with a digital spreadsheet that includes
formulas to use when performing data analysis reviews of reported awards. The data analysis
tool “flags” awards with indications of potential over-reporting or under-reporting of jobs
information. OCFO also provided instructions to the agencies describing the proper use of this
tool. The instructions state that if a record is flagged, the agency should seek further information
and take action if needed. The instructions further state that “the use of this tool does not replace
the complete data quality analysis required for validation of the recipient reports.”

Objectives

Our objective was to analyze the jobs information for USDA awards reported on
FederalReporting.gov for the quarter ending March 31, 2011, to determine if OCFO and the
agencies are performing an adequate review of the number of jobs reported as retained and
created by award recipients.




5
  OMB-M-10-08, Updated Guidance on the American Recovery and Reinvestment Act – Data Quality, Non-
Reporting Recipients, and Reporting of Job Estimates, December 18, 2009.
6
  USDA American Recovery and Reinvestment Act Section 1512 Recipient Report Information and Guidance,
October 15, 2010.
7
  A job created is a new position created and filled, or an existing unfilled position that is filled, that is funded by the
Recovery Act. A job retained is an existing position that is now funded by the Recovery Act.

2      AUDIT REPORT 50703-0002-13
Section 1: Agency Reviews of Jobs Information on
FederalReporting.gov

Finding 1: Agencies Are Not Performing Adequate Reviews of Jobs
Information on FederalReporting.gov
We found reporting errors related to 33 of the 99 USDA Recovery Act awards in our sample,
which account for approximately 375 of the 1,200 Recovery Act jobs reported for the awards we
reviewed for the quarter ending March 31, 2011. USDA agencies’ reviews of recipient-reported
job creation and retention data submitted to FederalReporting.gov were inadequate to detect the
errors because OCFO did not specifically direct the agencies to develop additional data quality
tests to supplement an OCFO-provided data quality tool. Although the agencies believed that
OCFO’s tool for checking for potentially over-reported and under-reported awards would be
sufficient, the tool was not effective in identifying all types of errors. Without accurate data
about the number of jobs USDA agencies retained or created through the use of Recovery Act
Funds, it is difficult to measure how effective the Department was in accomplishing a main
Recovery Act objective, which was to create and retain jobs.

OMB and OCFO guidance requires agencies to focus on significant errors and material
omissions when analyzing Recovery Act data. OMB M-10-08 defines an error in the number of
jobs retained or created as a significant error; therefore, agencies are expected to closely monitor
this information and develop procedures to ensure this number is correct. OMB M-10-08 also
requires agencies to develop plans to review the data reported on FederalReporting.gov. OCFO
has issued guidance to USDA agencies that mirrors the OMB guidance, and has provided the
agencies with a data quality tool that identifies potential errors in the data on
FederalReporting.gov. Agencies are to input the most recent data from FederalReporting.gov
into a digital spreadsheet and then follow the tool’s instructions to analyze the data. However,
OCFO has stated that the tool “does not replace the complete data quality analysis required for
validation of the recipient reports.”

After we performed initial scans of data that USDA award recipients reported on
FederalReporting.gov for the quarter ended March 31, 2011, we identified a number of
potentially significant errors. From the data related to 4,960 Recovery Act awards—which
included approximately 10,600 jobs created or retained—we non-statistically selected 99 awards
for further review.8 Of the 99 awards we selected for further review, we found that job numbers
were either inflated or underreported for 33 of the awards (involving 375 reported jobs).

OIG determined that inaccurate job numbers were reported to FederalReporting.gov because
recipients did not always report correct information and USDA agencies did not adequately
analyze the number of jobs that award recipients were reporting. Not all recipients were aware


8
 For each award, we initially contacted the relevant agency to determine what reviews the agency had performed to
ensure that the number of reported jobs was correct. Based on discussions with the agencies, we were able to
determine the accuracy of 44 of the awards; to determine the accuracy of the remaining 55 required further analyses
and documentation from the award recipients.

                                                                         AUDIT REPORT 50703-0002-13               3
of the OMB-required methodology for calculating jobs; consequently, they made errors when
they reported.9 Some recipients used incorrect payroll hours, reported cumulative job numbers
as opposed to the jobs created in that quarter, or reported the same jobs twice for projects that
received multiple awards—most often one loan and one grant. Additionally, for some awards,
we found that there were no jobs being reported when jobs should have been reported because
the award was funding payroll hours. For example, when we contacted a recipient who reported
zero jobs created or retained, we found that multiple employees performed work on the Recovery
Act project. When we asked the recipients why they did not report more accurate information,
they explained that these errors were due to misunderstanding the requirements or human error
while entering the data.

When we discussed the significant errors in the jobs reported on FederalReporting.gov with the
agencies, agency representatives stated that they overlooked the errors we identified and were
not performing the type of detailed analysis that could identify these errors. OCFO provided
USDA agencies with the data analysis tool and approved the agencies’ processes. However,
while agencies are required to focus analysis on significant errors, OCFO did not specifically
require agencies to develop additional data analysis tools, and agencies were not proactive in
developing additional tests to verify the accuracy of information that award recipients reported
on FederalReporting.gov. When we asked agency officials why they were not more proactive in
verifying the accuracy of the information that award recipients reported on
FederalReporting.gov, they stated that they followed the minimum guidance issued by OCFO
and OMB and met all minimum requirements. Though we did find that they met the minimum
requirements, those requirements were not adequate to identify the errors found in the number of
jobs reported.

The OCFO-provided tool was intended to be used only as a baseline to develop further tests or
agency-specific analytical tools that would be more effective in identifying errors reported on
FederalReporting.gov. When we analyzed the data quality tool provided by OCFO, we found
that it performs two tests related to the number of jobs reported: one for over-reporting and one
for under-reporting. The first test calculates labor costs by the number of jobs reported. If the
result indicates that the reported jobs paid less than minimum wage, the test indicates that job
numbers may be over-reported. The second tests whether a recipient reports using more than
$500,000 without creating any jobs, which indicates that job numbers may be under-reported.
Both of these tests are intended to broadly identify anomalies and should not be used by agencies
as the sole indicator of erroneously reported jobs.

Additional data tests can provide indications of erroneously reported jobs and indicate when
agencies should conduct follow-up work to verify data. For instance, tests such as the following
can identify potential data issues:




9
 OMB M-10-08 specifies that estimated jobs are calculated by aggregating the number of hours worked and funded
by Recovery Act within the quarter and dividing by the total by the number of quarterly hours in a full-time
schedule.


4     AUDIT REPORT 50703-0002-13
     ·   A manual comparison of the project description and project status to the number of jobs
         reported can indicate errors.
     ·   A comparison of the information reported for the current quarter with information
         reported for previous quarters may indicate cumulative reporting, which is not allowed by
         OMB.10
     ·   A check of projects that received multiple awards, such as both a loan and a grant, can
         determine if recipients reported the same jobs for more than one award.

These tests, in addition to the baseline tests, identify potential errors that agencies should validate
and remedy as needed.

One of the primary objectives of the Recovery Act was to retain and create jobs. The Recovery
Act also emphasized unprecedented levels of transparency and accountability in the use of funds.
By taking steps to identify and remedy any errors in Recovery Act job numbers reporting, USDA
and its agencies can improve the accuracy of information used to measure the effectiveness of
the Recovery Act.

Recommendation 1
Direct agencies to develop data tests and guidance to improve their reviews of the jobs
information reported on FederalReporting.gov. This includes, but is not limited to, ensuring that
the project description fields match the number of jobs reported, recipients with multiple awards
are reporting accurately, and recipients are reporting only the jobs created or saved during the
quarter being reported.

Agency Response
OCFO updated its guidance and required agencies to validate the jobs numbers and project
descriptions. The guidance also explains how to report jobs correctly and provides instructions
for the agency methodology to calculate the jobs created. In addition, OCFO stated that it went
beyond the OMB requirements by offering a data tool to show potentially inconsistent jobs
numbers. OCFO stated that it will continue to communicate the importance of conducting a
thorough analysis of the jobs numbers reported and how these figures align with the project
descriptions.

OIG Position

We accept management decision for this recommendation. To achieve final action, OCFO needs
to provide a copy of the updated guidance that was issued during our audit.




10
  These comparisons should include reviews of current reports against 2009 data to identify any cumulative
reporting that may have occurred once cumulative reporting became prohibited after the third quarter of 2009.

                                                                         AUDIT REPORT 50703-0002-13             5
Scope and Methodology
To accomplish our objective we reviewed public laws, regulations, policies, and procedures
related to data quality reviews of award information submitted by award recipients on
FederalReporting.gov. We interviewed OCFO and agency officials to determine how they were
monitoring the jobs reported on FederalReporting.gov. We also interviewed USDA Recovery
Act award recipients to determine how they were reporting the jobs on FederalReporting.gov.

USDA award recipients reported 4,960 awards accounting for approximately 10,600 jobs created
or retained on FederalReporting.gov for the quarter ended March 31, 2011. We selected this
quarter because we had done preliminary analysis using it in a previous audit.11 For this audit we
focused on the number of jobs retained or created as reported by the recipient. To determine our
judgmental sample of awards with potential errors, we analyzed the number of jobs reported to
identify possible errors using the following six criteria:

     ·    We manually compared the project description and project status to the number of jobs
          reported. This resulted in 324 questioned awards.
     ·    We reviewed contracts and grants that have expended at least $500,000 but have reported
          zero jobs. This resulted in 473 questioned awards.
     ·    We reviewed awards that would be paying less than minimum wage per each job retained
          or created, to determine whether recipients are over-reporting the number of jobs retained
          or created. This resulted in 1,773 questioned awards.
     ·    We reviewed the previous two quarters and compared them with reports from the first
          quarter of 2011 to identify cumulative reporting, which is not allowed by OMB. This
          resulted in 258 questioned awards.
     ·    We compared data from the third quarter of 2009—the quarter when cumulative
          reporting was used—to the first quarter of 2011 to identify job numbers that may have
          had a slight increase of five or fewer jobs retained or created. This resulted in seven
          questioned awards.
     ·    We reviewed projects that received multiple awards—most often one loan and one
          grant—to determine if they reported the number of jobs retained or created twice rather
          than once. This resulted in 123 questioned awards.

Based on these results, we non-statistically selected 99 awards that met the criteria most
frequently, as well as awards that were suggested for review by other audit teams. For these
awards, we reviewed the process the agency used to determine the accuracy of the jobs reported.
After receiving responses from the agencies, we performed a more detailed review of 55 of those
awards with the recipient and obtained supporting documentation for the number of jobs
reported.

We conducted our audit work at OCFO’s National Office in Washington, D.C. Our sample
selection of awards included the following USDA agencies: Rural Development, Food and


11
  Audit Report 50703-0001-13, American Recovery and Reinvestment Act—USDA FederalReporting.gov March
2011 Data Quality Review¸ October 26, 2012.

6        AUDIT REPORT 50703-0002-13
Nutrition Service, Forest Service, Agricultural Research Service, and Natural Resources
Conservation Service. Our audit fieldwork was performed from January 2012 through October
2012.

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                           AUDIT REPORT 50703-0002-13        7
Abbreviations
OCFO .......................... Office of the Chief Financial Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
USDA.......................... United States Department of Agriculture




8     AUDIT REPORT 50703-0002-13
Agency’s Response




                 USDA’S
     OFFICE OF THE CHIEF FINANCIAL
               OFFICER’S
       RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 50703-0002-13   9
United States
Department of
Agriculture

Office of the Chief
Financial Officer

1400 Independence
Avenue, SW

Washington, DC
20250

                                                                                         November 16, 2012

                      TO:            Rod DeSmet
                                     Assistant Inspector General
                                      for Audit

                      FROM:          Jon M. Holladay    -S- Jon M. Holladay
                                     Acting Chief Financial Officer

                      SUBJECT:       Data Quality Review of American Recovery and Reinvestment Act
                                     Jobs Reported for USDA Programs, Audit Number 50703-002-13



                      Thank you for the opportunity to address your comments on the Office of
                      Inspector General (OIG) audit entitled "Data Quality Review of American
                      Recovery and Reinvestment Act Jobs Reported for USDA Programs." The
                      following is OIG's recommendation in the report and the Office ofthe Chief
                      Financial Officer's (OCFO) response.

                      Recommendation 1:
                      Direct agencies to develop data tests and guidance to improve their reviews of
                      the jobs information reported on FederalReporting.gov. This includes, but is not
                      limited to, ensuring that the project description fields match the number of jobs
                      reported, recipients with multiple awards are reporting accurately, and recipients
                      are reporting only the jobs created or saved during the quarter being reported.

                      Management Response:
                      OCFO's current guidance requires that agencies validate the jobs numbers and
                      project descriptions (see Section 5.2 of the OCFO Recovery Act guidance). In
                      Section 4.2, the guidance explains how to report jobs correctly and provides
                      instructions for the agency methodology to calculate the jobs created. OCFO
                      went beyond the Office of Management and Budget requirements by offering a
                      data tool to show potentially inconsistent jobs numbers. OCFO frequently
                      communicated with the recipient report


                                            An Equal Opportunity Provider and Employer
Rod DeSmet                                                                  Page 2


reviewers about how to conduct this analysis and provided guidance on
checking the data.

OCFO will continue to communicate the importance of conducting a thorough
analysis of the jobs numbers reported and how these figures align with the project
descriptions. A copy of the OCFO Recovery Act Guidance is attached for your
information.

If you have any questions or need additional information, please contact
me at (202) 720-5539, or have a member of your staff contact Kathy
Donaldson at (202) 720-1893.

Attachment




                      An Equal Opportunity Provider and Employer
Informational copies of this report have been distributed to:

Administrator, Office of the Chief Financial Officer
 Attn: Agency Liaison Officer (5)

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer
 Attn: Director, Planning and Accountability Division (1)
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs
Fraud, Waste, and Abuse
Email: usda.hotline@oig.usda.gov
Phone: 800-424-9121 Fax: 202-690-2474
Bribes or Gratuities:
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
